NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




           Region II Member Complaint
                 Process Review

           OIG-03-01        March 31, 2003




                    Herbert S. Yolles
                   Inspector General




 Released By:                           Auditor-in-Charge:


 William A. DeSarno                     Dwight B. Engelrup
 Deputy Inspector General               Senior Auditor
                            TABLE OF CONTENTS


                                                              Page #
Description

Executive Summary                                               1

Background                                                      3
      Member Inquiry and Complaint Process                      3
      Review Plan                                               3

Member Complaint Sample Review                                  5
     Sample Selection                                           5
     Review Results                                             8

Member Complaint Process                                       10
     Plans and Guidance                                        10
     Internal Controls Evaluation                              15

Attachment 1 – Region II Universe                              17
Attachment 2 – Region II Sample Summary                        18
Attachment 3 – Region II Member Complaint Process Flowchart    19




                                         i
                               EXECUTIVE SUMMARY
The manner in which the National Credit Union Administration (NCUA) responds to inquiries
and complaints by credit union members and the public plays a part in fulfilling the agency’s
vision of working with the cooperative credit union system to provide service to all segments of
American society and to enable credit union members to thrive in the 21st century.

Most inquiries or complaints from credit union members are sent for action to the regional office
where the member’s credit union is located. The process at the regional office includes a review
of the inquiry; action by the regional office or referral to the member’s supervisory committee
(audit committee) for action; and response(s) to the member. This review focused exclusively on
NCUA’s Region II (Alexandria, Virginia) member complaint process.

As a result of our findings during the course of the Region II review, we subsequently conducted
a more comprehensive national review of NCUA’s overall member complaint process,
encompassing the additional NCUA regional offices. We intend to issue a report on this
subsequent review in the near future. That report will include a detailed consideration of
NCUA’s role in responding to consumer complaints that do not allege violations of consumer
laws and regulations.

The purpose of this review was to evaluate Region II’s process and effectiveness in addressing
complaints and inquiries received from members of natural person credit unions during 2002.

Our primary review procedures included evaluating the relationship of the member complaint
process to written staff guidance, goals, the NCUA Annual Performance Plan, and the NCUA
Strategic Plan. We interviewed appropriate regional staff and reviewed a sample of closed and
in-process complaints and inquiries to evaluate the effectiveness of the process. Our review was
performed from July through September 2002.

We observed that Region II’s process and methods were appropriate for the region’s current
guidance, and that the region has devoted significant resources to respond to member complaints
and inquiries. We observed that the region appears to be going the extra mile in attempting to
resolve member complaints against credit unions.

We noted that like other NCUA regions, Region II is devoting significant resources to member
inquiries and complaints that are non-regulatory or non-compliance in nature. Our sample
review indicated two-thirds of the complaints addressed by the region were non-regulatory or
non-compliance related complaints. Management estimated that eighty percent of all complaints
handled were non-regulatory or non-compliance-related. Before the commencement of our
review, regional management had initiated procedures aimed at reducing resources committed to
non-regulatory and/or non-compliance-related complaints.




                                                1
Overall, we concluded that Region II takes seriously its responsibility to answer inquiries in a
timely and professional manner. We discussed the results of our review with regional
management and staff. Our report provides four recommendations for improving the member
complaint process in Region II.




                                                 2
                                       BACKGROUND

                              To properly serve existing credit union members and to retain the
 Member Inquiry and
                              ability to attract new members, it is important for credit unions to
 Complaint Process
                              respond to inquiries and complaints in a timely manner. In it’s
                              Strategic Plan, NCUA states its intent to assist credit unions in their
continued focus on improving service to members. Frequently, credit union members and other
parties seek assistance from NCUA in resolving disputes or inquiries with credit unions. While
operation of a credit union is the responsibility of the respective credit union officials, NCUA
does attempt to expedite the dialogue when appropriate between credit unions and their
members.

The NCUA mission and plans described in the agency Strategic Plan emphasize agency efforts to
ensure that credit unions are empowered to make the necessary business decisions to serve the
diverse needs of their members and potential members. The agency plans to assist credit unions
in this respect by establishing a regulatory environment that encourages innovation, flexibility,
and continued focus on attracting new members and improving service to existing members.

Member inquiries and complaints received by the region typically include complaints against
credit unions; credit report requests; inquiries on how to correct credit reports; requests for
reconsideration of a loan denial; complaints against banks or other non-credit union institutions;
and loan documentation requests intended for a credit union. Complaints pertaining to state-
chartered credit unions, requests for credit reports, or personnel issues may be forwarded to the
appropriate state or federal agency for action.

Attachment 3, Region II Member Complaint Process Flowchart at the end of this report,
describes the Region II process for addressing credit union member inquiries and complaints.



 Review Plan

Review Objectives
The objectives of our review of the Region II member complaint process were to evaluate the
current process used in the resolution of credit union member complaints submitted to Region II,
determine the effectiveness of the Region II member complaint process, and provide
recommendations for process improvement.

Review Scope
Our review scope included:
    • Credit union member complaints submitted to Region II from January through July,
        2002;
    • Region II staff involved in member complaints or inquiries, including staff of the
        Division of Supervision (DOS), the Division Insurance (DOI), and the Division of
        Management Services (DMS); and

                                                  3
    •    Documentation for the review period including:
        1. Regional goals; the NCUA Annual Performance Plan; and the NCUA Strategic Plan;
        2. Regional staff guidance;
        3. Regional management reports; and
        4. Sample of member inquiries and complaints for:
            Congressional requests;
            Credit union member requests and NCUA central office requests; and
            Complaints against NCUA staff.

Review Procedures and Methodology
Our review included the following procedures:

   •    Discussions with regional staff to determine and evaluate the regional office member
        complaint resolution process, internal and quality control efforts, and the effectiveness of
        the regional effort;

   •    Evaluation of the relationship of the member complaint process to written staff guidance,
        regional goals, regional performance plan, and the NCUA Strategic Plan; and

   •    Review of a sample of closed and in-process member complaints to evaluate the
        timeliness and effectiveness of the regional process and response.




                                                 4
                      MEMBER COMPLAINT SAMPLE REVIEW

                              We reviewed a judgmental sample of 38 closed and in-process
    Sample Selection          credit union member inquiries or complaints received by Region
                              II from January through July 2002 to evaluate the effectiveness
of the region’s member complaint process.

We found that Region II receives some member inquiries from Congressional offices, while
other complaints and inquiries are sent directly to the regional office. Most complaints that are
within the purview of NCUA are sent initially by the regional office to the supervisory
committee chair of the respective federal credit union for investigation. The region requests
responses to investigations performed by the supervisory committee.

Each inquiry or complaint action taken by the regional office, such as referral of the complaint to
the supervisory committee chair and responses received from the chair, is assigned a code for the
action taken without an aggregation of action codes for each inquiry or complaint. The result of
this method is an inaccurate and duplicative count of the actual number of complaints or
inquiries received by the region.

To determine the review universe we relied on the Division of Insurance (DOI) listing of
complaints received by the region and logged in using the GENISIS 1 system for the period of
January 1, 2002 through July 25, 2002

Member Complaint and Inquiry Universe
Region II classifies member complaint actions using the following categories:
   • Congressional Inquiries
   • Initial Complaints sent to Supervisory Committee Chair
   • Miscellaneous Complaint Correspondence
   • Supervisory Committee Chair Response

Congressional Inquiries generally result from inquiries received by members of Congress from
constituents. These are sent by the Congressional office to the region for review and action.
Initial Complaints sent to supervisory committee chair are inquiries and complaints received by
the region that were forwarded to the appropriate credit union supervisory committee chair for
investigation and action. Miscellaneous Complaint Correspondence represents letters and e-mail
inquiries acted on by the region, but may also represent correspondence regarding pending
inquiries and complaints. Supervisory Committee Chair Response represents responses to the
regional office regarding actions taken by the committee with respect to inquiries and complaints
sent to the supervisory committee chair by the region.




1
  GENISIS (Generated Efficient National Information System for Insurance Services) is the software system
developed and used by NCUA to record and monitor insurance related activities. The system is used extensively by
the Region II DOI for division actions including member inquiries and complaints.

                                                       5
The following table represents the numbers of closed and in-process activity by Region II by
major categories for 2002. Please refer to Attachment 1, Region II Universe, for additional
information:

        Region II Member Complaint and Inquiry Universe January 1 – July 25, 2002:
                        Description:                   Closed: In-Process: Total:
Congressional Inquiries                                     14             2       16
Initial Complaint sent to Supervisory Committee Chair      166             2      168
Miscellaneous Complaint Correspondence                     101             8      109
Supervisory Committee Chair Response                       182            13      195

We observed and verified with DOI staff that more than one category code per complaint was
being used. For example when a complaint is received and sent to the Supervisory Committee
for investigation, a code is assigned representing Initial Complaint sent to Supervisory
Committee Chair. When the regional office receives a response from the Supervisory
Committee a code is assigned representing the Supervisory Committee Chair Response. If other
correspondence is received regarding the same complaint, another code representing
Miscellaneous Complaint Correspondence may be assigned to the complaint. The result could
be three or more codes being assigned to the same complaint.

The use of multiple codes per inquiry or complaint precluded our determining the exact number
of inquiries or complaints received by the region for the review period. However, after
discussion with staff it was determined that using the GENESIS system, a single code per inquiry
or complaint can be assigned with sub-codes assigned for the various actions and follow-up by
the region.

Review Samples
For the purposes of our review, we were primarily interested in the then-current 2002 process
and actions taken by the region regarding member inquiries and complaints. We judgmentally
selected for review 32 completed complaints plus six in-process complaints with large numbers
of days in process. We selected at least one sample from each category.

Our review selection criteria included:
   • Judgmental selection of 32 completed complaints; and
   • Judgmental selection of 6 in-process complaints.

The chart on the following page shows our review universe and sample selections by individual
categories.




                                               6
                                 Review Universe and Sample
                       Description:                     Universe:          Review Sample:
Completed:
  Congressional Correspondence (code 80)                             14                   2
  Initial Complaint to Supervisory Committee Chair                  166                   5
      (code 76)
  Miscellaneous Complaint Correspondence (code 78)                  101                  10
  Supervisory Committee Chair Response (code 77)                    182                  15
                          Totals:                                   463                  32
In-Process:
  Congressional Correspondence (code 80)                               2                  1
  Initial Complaint to Supervisory Committee Chair                     2                  1
    (code 76)
  Miscellaneous Complaint Correspondence (code 78)                    8                   2
  Supervisory Committee Chair Response (code 77)                     13                   2
                          Totals:                                    25                   6

                     Grand Totals:                                  488                  38

CONCLUSIONS:
We found that one code is assigned to each inquiry or complaint with no aggregation of code
action under a single number for each inquiry or complaint. The current method results in an
inaccurate and duplicative count of complaints or inquiries.

RECOMMENDATION 1:
To ensure accurate counting and monitoring of member inquiries and complaints, the region
should implement a system, currently available using the GENISIS system, to account for
inquiries and member complaints using one number with sub-category log numbers for actions
taken by the regional office.

Region II Comments:
We have taken steps to address this issue. Currently, all incoming complaint correspondence is
assigned a separate log sheet for GPRA purposes. This log sheet enables us to track the length
of time a complaint is open, the nature of the complaint, whether a regulation violation occurred,
and whether the complaint was submitted through a congressional office. This change adds
greater transparency to our tracking process.




                                                7
                     We reviewed a judgmental sample of thirty-eight member inquiries and
 Review Results      complaints received by the region from January 1, 2002 through July 25,
                     2002, representing thirty-two completed and six in-process complaints.

We found that Region II is handling the majority of member inquiries and complaints in a timely
manner, and almost all inquiries and complaints in a reasonable manner. In addition, from our
sample we found that approximately two-thirds of the sample complaints did not involve
regulatory or compliance issues. Region II management estimates that approximately 80 percent
of all complaints handled are non-regulatory or non-compliance related. Consequently, the
region is spending most of its inquiry and complaint resources on complaints outside the
enforcement authority of the agency. For review summary information, please refer to
Attachment 2 – Region II Sample Summary at the conclusion of this report.

The focus of our review was to determine the following issues for each instance:
• whether the inquiry was handled in accordance with agency policy (timely resolution);
• whether the inquiry was handled in a reasonable manner;
• whether the inquiry tracking and monitoring were reasonable;
• whether all inquiry issues were addressed;
• whether inquiry follow-up was timely and adequate; and
• whether the complaint was a regulatory or compliance-related complaint.

Region II Sample Analysis:
                                                                             Yes %        No %
Question 1 – Was the inquiry handled in accordance with national/regional    57%          43%
policy? (Did the region address the inquiry within the time frames of the
procedures?)
Question 2 – Was the inquiry handled in a reasonable manner? (Did the         95%         5%
region address the issues of the inquiry and handle the inquiry in a
reasonable manner given the facts and available guidance?)
Question 3 – Was the inquiry tracking and monitoring reasonable? (Did         78%         22%
the region identify, record, and monitor actions taken in a reasonable
manner and in accordance with available procedures?)
Question 4 - Were all inquiry issues addressed? (Did the region address       94%         6%
all inquiry issues and report actions taken to resolve the issues to the
member?)
Question 5 – Was inquiry follow-up timely and adequate? (Did the region       80%         20%
follow-up on the inquiry in accordance with procedures?)
Question 6 - Was the complaint regulatory or compliance-related? (Was         34%         66%
the complaint related to region’s enforcement/compliance authority?)




                                               8
CONCLUSIONS:
We determined from our review that inquiries and complaints were generally handled in a timely
manner (57 percent of the complaints), and reasonable manner (95 percent of the complaints).
Approximately two-thirds of the sample complaints (66 percent) were non-regulatory or
compliance related. Region II management estimates approximately 80 percent of all complaints
handled are non-regulatory or non-compliance related. Based on the forgoing information, the
region is spending most of their inquiry and complaint resources on complaints that do not allege
a specific violation. Regional management is developing procedures to reduce resources spent
on non-regulatory inquiries and complaints.

As a result of our findings during the course of the Region II review, we subsequently conducted
a more comprehensive national review of NCUA’s overall member complaint process,
encompassing the additional NCUA regional offices. We intend to issue a report on this
subsequent review in the near future. That report will include a detailed consideration of
NCUA’s role in responding to consumer complaints that do not allege violations of consumer
laws and regulations.




                                                9
                             MEMBER COMPLAINT PROCESS

                                To determine and evaluate the current member complaint process
  Plans and Guidance
                                in Region II, we obtained and reviewed the most recent NCUA
Strategic Plan for the years 2000-2005; the final NCUA 2002 Annual Performance Plan; the
Region II 2002 annual plan; the Region II DOS and DOI 2002 annual plans; and national and
regional current and proposed member complaint handling guidance.

We found that the NCUA Strategic Plan, 2002 NCUA Annual Performance Plan, and the Region
II 2001 and 2002 Operating Plans, did not specifically address the handling of member
complaints. However, the Region II DOS and DOI plans and goals did address member
complaint processing.

NCUA Instruction No. 12400.04 and Region II guidance address credit union member inquiry
and complaint handling. Current Region II regional guidance parallels the national instruction
and provides adequate instruction to regional staff.

NCUA Strategic Plan
Credit unions have grown and prospered over the past thirty years for many reasons. Reasons
popularly cited are that they have provided high quality, friendly, face-to-face service and high
quality products, at competitive rates, while keeping the risks and costs to members low. Credit
unions differentiate themselves from other financial institutions by virtue of their cooperative
ownership structure.

The NCUA interests and responsibilities go beyond a narrowly defined view of the financial
condition of credit unions to a regulatory approach supporting credit unions in their attempts to
compete in the marketplace. The agency strives to establish a regulatory environment that
encourages credit union innovation, flexibility, and continued focus on attracting new members
and improving service to existing members.

The NCUA Strategic Plan (Plan) states the agency’s charge is to foster the safety and soundness
of federally insured credit unions and to better enable the credit union community to extend
credit union services for productive and provident purposes to all Americans. The Plan has five
Strategic Goals. However, we found that none of the goals specifically address the handling of
member complaints by NCUA.

NCUA 2002 Annual Performance Plan
The NCUA prepares annual performance plans to accomplish objectives in the five year strategic
plan. The NCUA 2002 Plan contained five strategic goals that parallel and support the recent
strategic plan. The agency approach is to ensure that NCUA staff, at all levels, communicate
effectively in word and deed and use a regulatory approach that supports credit unions in their
efforts to be financially safe, sound, and highly member-focused.

NCUA, in its 2002 Annual Performance Plan, focused on regulatory flexibility and enhancing
credit unions’ ability to grow. In addition, the agency planned to focus on removing barriers for

                                                10
credit unions that choose to extend affordable financial services to designated underserved areas.
The goals and plans address credit union service to members. However, we found that none of
the goals and plans specifically address resolving credit union member complaints.

Region II 2001 and 2002 Operating Plans
The Region II 2001 Operating Plan indicated plans for the regional staff to participate in
workshops with State Supervisory Authorities (SSA), state credit union regulators, credit union
leagues, and other trade organizations for credit unions to improve service to their membership.
The Region II 2002 Operating Plan indicated NCUA exists to assure safe and sound service to
credit union members through their individual credit unions.

Regional management indicated that the region works to integrate the regional work and plans
with the NCUA Strategic Plan. In addition, management ensures that the regional annual
performance plans address agency plans and goals.

Region II DOI 2002 Goals – Member Complaints
Region II DOI 2002 goals regarding member complaints and inquiries from the public stated,
“We have taken steps to provide better service to callers via the implementation of an automated
phone system. We will now review the way we process our complaints and inquiries to make
recommendations to further improve our response time and enhance customer satisfaction.”
Regional management indicated that revised draft phone script and procedures were completed
in June 2002, and were to be implemented upon approval by the regional director. At the time of
our review, the new procedures had not been implemented.

NCUA Guidance
At the commencement of our review the only national guidance available and in use by Region II
for the handling of credit union member complaints was NCUA Instruction 12400.2, dated July
17, 1995, Compliance Activities: Complaint Handling and Documentation of Violations, The
instruction provided guidance for the handling of alleged consumer compliance violations and
other complaints. Only one time frame was specified, that being an acknowledgment letter must
be sent from the regional office to the complainant within seven days of the receipt of the
complaint in the regional office when the complaint was addressed to an NCUA Board member.
The instruction did not provide any guidance regarding the amount of resources and time to
spend resolving complaints.

Revised National NCUA Guidance
In 2002, the NCUA Office of Examination and Insurance (E&I) released for agency comment a
revised national instruction No.12400.04. The instruction was essentially the same as the 1995
instruction for handling complaints. However, there was an expanded section regarding
Compliance Regulation Violation Database with respect to the current examination system. The
agency issued the revised NCUA Instruction No.12400.04 on September 5, 2002, Compliance
Activities: Complaint Handling and Documentation of Violations.




                                                11
Division of Insurance - Region II Current Guidance:
Region II guidance for complaint processing is contained in member complaint processing
procedures adopted in 1997. This guidance addresses current procedures and time frames in
addressing credit union member inquiries and complaints.

Complaints are received in the regional office via mail, e-mail, and telephone. The region
encourages the member to first attempt to resolve the complaint through the credit union’s
supervisory committee. If a member has tried to resolve the complaint with the credit union’s
officials, but the credit union has not been responsive, or if the allegations made by the member
are regulatory in nature, the member is to be instructed to write a letter to NCUA explaining, in
detail, the specifics of the complaint.

Region II guidance states:
• After the region receives a complaint it is logged in and must be processed within fourteen
   calendar days.

•   Regarding complaints involving federal laws, the Federal Credit Union Act, Federal Credit
    Union Bylaws, or NCUA’s Rules and Regulations, a letter with specific information is sent
    to the credit union from the regional office with suggestions for correction and a request for
    the credit union’s plan to resolve the issue. The credit union is given 30 days to respond
    back to the regional office regarding actions taken.

•   Region II uses a series of form response letters to initially respond to the complaint.

•   If a letter was sent to the credit union requesting an investigation, a follow-up log sheet is
    created to track and monitor the credit union’s response.

•   When a complaint is sent to the credit union supervisory committee chair for investigation,
    the regional office provides thirty calendar days to investigate and respond to the
    complainant. The supervisory committee is also asked to submit a copy of its letter to the
    member to the regional office for review along with any supporting documentation. If the
    credit union fails to respond to the initial request, another letter is sent with an additional
    time of fourteen days to respond. If there is still no response, a call is made to the
    supervisory committee. If the supervisory committee does not respond, a regional director
    letter is sent to the credit union president. If still there is no response, a memorandum is sent
    to the district examiner for follow-up. After a regional office review of the credit union’s
    action, the regional office closes the file if the action was satisfactory. If action is not
    satisfactory, the supervisory committee is contacted in writing and requested to reinvestigate,
    with generally the turn around time for the second investigation being 14-21 calendar days.

•   After the complaint has been processed and action taken, it will be logged off the monitoring
    system. According to Region II officials, the normal length of time to resolve a complaint is
    30-60 days.




                                                 12
•   If a member is not satisfied with the outcome of the credit union’s investigation or the
    region’s response, the member may appeal in writing to the regional office, specifically
    stating what is disputed and also providing documentation which supports the continued
    concerns.

Division of Supervision (DOS) Member Complaint Processing Procedures:
The DOS also receives a limited number of complaints from credit unions regarding the
examination process. DOS member complaint processing procedures include an
acknowledgement letter upon receipt of the complaint, and assignment of the complaint
investigation to an appropriate supervisory examiner. Upon receipt of the results of the
investigation, a DOS analyst reviews the supervisory examiner’s findings and prepares a
response letter for Regional Director signature to the complainant.

Complaints handled by DOS are logged in the DOS Access log under General, with a sub listing
Member Complaint.

Upon final resolution of a complaint involving a violation of federal law, the violations are
logged onto the Compliance Violation Log. The DOS submits the information on the log on a
quarterly basis to the Office of Examination and Insurance.

Region II Proposed Complaint Processing Procedures:
In July 2002, Region II developed revised guidance to handle member inquiries and complaints
including:
• Upon receipt of a written complaint that does not fall within the scope of NCUA’s
    enforcement authority, the region proposed sending a letter to the member or complainant
    summarizing NCUA’s enforcement authority and what agency they should contact in order
    to pursue their complaint. Examples of non-enforcement complaints may include, but are not
    limited to, automobile repossessions, contract law, probate issues, level of service,
    bankruptcy, late fees (unless the region suspected pyramiding of debt), employment issues,
    collection issues, and matters falling under the Uniform Commercial Code. The region
    estimated that follow-ups and supervisory committee responses of this nature represent
    approximately 80 percent of the member complaint workload.

•   The region indicated that efficiency could be improved by modifying the recording on the
    member complaint line to include a message stating what types of complaints fall within
    NCUA’s enforcement authority. The recording would continue to tell members that they
    should first contact the credit union’s supervisory committee and that NCUA will only
    investigate and respond to written complaints

•   For complaints that fall under the region’s enforcement authority, the region planned to
    continue to use the current member complaint processing procedures with one modification.
    That is, the region would respond to each member after a review of the supervisory
    committee’s response. The region believed this would eliminate the follow-up calls made by
    members regarding their complaints.




                                               13
CONCLUSIONS:
After reviewing the NCUA written plans and guidance, we found that the NCUA Strategic Plan,
the 2002 NCUA Annual Performance Plan, and the Region II 2001 and 2002 Operating Plans did
not specifically address the handling of member complaints. However, the Region II DOS and
DOI respective plans and goals did address member complaint processing.

NCUA Instruction No. 12400.04 and Region II guidance adequately address member inquiry and
complaint handling. Current Region II regional guidance parallels the national instruction and
provides adequate instruction to regional staff.

RECOMMENDATION 2:
To ensure that resources are identified in the member inquiry and complaint process work, the
region should address the work in the budget process and in the regional annual performance
plan.

Region II Comments:
We are increasing our resources in the Division of Insurance. Specifically, we are currently in
the process of hiring a third insurance technician that will be cross trained in the processing of
member complaints. This will enable greater depth of staff and reduce the demands placed on
the existing personnel (backup).

In addition, the processing of member complaints has been added to our annual performance
plan to ensure the goals outlined in our member complaint processing procedures are being met.


RECOMMENDATION 3:
At the time of our review, the region was considering revising member complaint handling
procedures and practices that could have been outside the requirements of the national guidance
then in force. To ensure that regional guidance remains current and in accordance with national
guidance, regional guidance and practice should parallel or exceed national guidance and intent.

Region II Comments:
We interpret your recommendation to mean we should remain vigilant in our adherence to
policy. Currently, Region II’s revised procedures fall well within, and in some cases exceed, the
parameters of national guidance.




                                                14
                                       Regional management indicated that most of the member
  Internal Controls Evaluation
                                       inquiries and complaints are processed through the DOI.
Our evaluation of available internal controls focused around the member inquiry and complaint
process activity performed in the DOI.

We observed that the workload in the DOI dictates that a single technician is assigned the tasks
involved with GENISIS logging of complaints and handling of complaints. The technician
spends most of her time handling member complaints as well as performing other DOI work and
input to the GENISIS system. The DOS handles only a limited number of inquiries and
complaints. Inquiries and complaints handled by DOS relate primarily to credit union
examinations.

Senior regional management investigates complaints of a personal nature against NCUA staff.
Written procedures have not been developed by Region II for these types of complaints.

Regional internal controls included time frames for completion of inquiries and complaints;
letters to complainants reviewed and signed by regional management; and management
monitoring of work logs, weekly and monthly reports and reviews, and progress reports of
completed work.

Division of Insurance
Most of the credit union member inquiries and complaints are handled by the DOI. The
GENISIS system is utilized to record and track activities in the DOI, including inquiries and
complaints.

Region II has identified one DOI technician as the primary person involved with the member
complaint process to login, monitor, and provide follow-up for the region. The DOI technician
spends the vast majority of her time handling member complaints and is the primary internal
control person for member complaint actions. She processes telephone, e-mail, and written
inquiries. In addition, she monitors the time frames for complaint completion, prepares letters to
complainants, prepares management reports, and prepares progress reports for the Division
Director, Associate Regional Director for Operations, and Regional Director.

The DOI technician is the expert on the GENISIS system for the region. She logs the complaints
and inputs other DOI transaction information into the system such as field of membership
actions, and credit union mergers and liquidations. From the system, she prepares the weekly log
of transactions and other reports required by regional management to track and monitor DOI
activity. The weekly activity log identifies DOI member complaint activity and status. The DOI
Monthly Division Management Report captures member complaint activity.

When the DOI technician is out of the office, complaints or actions are not processed and
backlogs can and do occur. At the time of our review, the region had proposed using an
additional staff member to assist and back up the primary DOI technician and to strengthen
internal controls.




                                                15
Division of Supervision
DOS handles credit union member inquiries or complaints against NCUA staff regarding
disagreements with examination ratings and issues related to examinations. The DOS monthly
management report addresses division activity. However, the management report does not
identify member complaint activity.

Complaints Against NCUA Staff
The DOS processes personal complaints against NCUA staff. We were informed that there have
been no recent (year 2002) complaints against NCUA staff other than examination disagreements
from credit unions. If a complaint of a personal nature is received against NCUA staff,
consultations are held among senior management to determine the assignment and procedures to
follow in the investigation and resolution of the complaint. The DMS in the regional office
maintains records pertaining to personal complaints against staff. Complaints received against
regional division directors are handled by senior Region II management.


CONCLUSIONS:
The workload in the DOI dictates that a single DOI technician is assigned the tasks involved with
GENISIS logging of complaints and handling of complaints. She spends most of her time
handling member complaints as well as performing other DOI work and input to the GENISIS
system.

The DOS handles the limited number of credit union examination-related inquiries and
complaints. Complaints and inquiries of a personal nature not related to credit union
examinations are investigated by senior regional management.


RECOMMENDATION 4:
To limit backlogs, ensure orderly flow of work, and separation of duties, the region should
devote sufficient resources to provide backup for the current DOI technician tasked with credit
union member inquiry work.

Region II Comments:
Region II is in the process of interviewing and hiring a third insurance technician to assist with
member complaints. This will permit cross-training, greater depth of staff, and better separation
of duties. The backup resources should well satisfy this recommendation.




                                               16
                       ATTACHMENT 1 – Region II Universe



            DOI                 2002    2002 Sample     2002       2002 In Process
                                                      In Process       Sample
Congressional                      14                          2
  Within 7 days                    10
  Exceeded 7 days                   4             2           2                  1

Initial Complaint to SCC          166                         2
   Within 7 days                  109             2           1
    Exceeded 7 days                57             3           1                  1

Misc. Compl. Corresp.             101                         8
   Within 14 days                  59             4           5
   Exceeded 14 days                42             6           3                  2

SC Response                       182                        13
   Within 14 days                 116             8           8
   Exceeded 14 days                66             7           5                  2

    DOS (1/1/01-7/31/02)
29 complaint items related to                     0                              0
examinations

  Staff Complaints (1/1/01-
          7/31/02)
0 complaint items                                 0                              0

Sample Totals                                    32                              6




                                           17
                  ATTACHMENT 2 – Region II Sample Summary



                            Q1       Q2                  Q3             Q4             Q5        Reg
Sample Category        Yes No NA     Yes No NA      Yes No NA      Yes No NA      Yes No NA     Yes No

Open
Congressional               1        1              1              1              1                       1

Initial Complaint to        1        1              1                        1              1   1
Supervisory Comm.

Misc. Complaint        2             2                   2         1         1    1         1   1         1
Correspondence

SC Response            1     1       2              2              2              2                       2


Closed
Congressional          2             2              2              2              2                       2

Initial Complaint to   3     1   1   3    1    1    3    1    1    4         1    3    1    1   1         4
Supervisory Comm.

Misc. Complaint        5     5       10             7    3         10             7    3        3         7
Correspondence

SC Response            8     7       14   1         13   2         13   2         12   3        7         8

                       21   16   1   35   2    1    29   8     1   33   2     3   28   7    3   13    25
Totals

                       Y= 21         Y= 35          Y= 29          Y= 33          Y= 28         Y= 13
                       N= 16         N= 2           N= 8           N= 2           N= 7          N= 25
                       N/A=1         N/A=1          N/A=1          N/A=3          N/A=3

                            38            38             38             38             38            38
Totals




                                               18
ATTACHMENT 3 – Region II Member Complaint Process Flowchart

                              Member contacts NCUA Central Office,
                                                                                             End
                                 Region II (R2), other office with
                                complaint via letter, phone, e-mail



                                                                                         R2 notifies
                                       Contact information                            member, sending
                                        forwarded to R2                               office regarding
                                            for action                                  disposition of
                                                                                          complaint



                                     Contact received by R2.
                                     R2 logs in complaint to
                                       monitoring system,


                                                                          If outside regulatory authority R2 letter of
                                                                               action assignment to Supervisory
                                                                          Committee Chair (SCC). No action other
                                      R2 decides course of                than to monitor actions taken by SCC. If
                                             action                         federally insured state chartered credit
                                                                           union, contact forwarded to appropriate
                                                                              State Supervisory Authority (SSA)




                                   If within NCUA regulatory
                                   authority or action can be
 Letter to SCC at subject
                                  taken by R2 letter notification
  credit union or letter to
                                            to member
appropriate SSA for action
 with response deadline
                                        R2 letter of action
                                    assignment to Supervisory
                                    Committee Chair (SCC) at
                                       subject credit union




 SCC performs investigation
and responds back to R2 and            R2 performs timely
          member                       follow-up with SCC




                           R2 records resolution of complaint, notifies
                           member, and original office of action taken
                          by SCC on letter to the complainant and logs
                               complaint out of monitoring system




                                R2 prepares management reports



                                               End




                                                          19
